                                                         NATIONAL SCIENCE FOUNDATION
                                                          OFFICE OF INSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

11   Case Number: A06120062
                                                                                         11         Page 1 of 1



                       NSF OIG received an allegation that a PI' had submitted a duplicate proposal to N S F ~and
              N I H ~in violation of the NSF Grant Proposal Guide.

                      Our analysis of the NSF and NIH proposals indicated a substantial amount of identical text
              and overlapping aims between the proposals. Our analysis also indicated that the NIH proposal was
              not listed in the Current and Pending Support section of the NSF proposal.

                     In his response, the Subject acknowledged that the overall language, background materials,
              and general content of Aim 1 overlapped between proposals, but argued that the overall scientific
              objectives, experimental tracks, and future lines of study differed significantly between proposals.
              The Subject explained that he would have discussed the overlap with program officers had both
              proposals been funded and the Subject attributed his failure to list the NM proposal in the Current
              and Pending Support section of the NSF proposal to an oversight.

                      Our analysis confirmed that specific elements of the proposal were indeed different between
              the two proposals. However, the proposals did contain a substantial amount of sirnilar/identical text.

                     NSF OIG wrote to the Subject to strongly remind him of both the restriction against
              duplicate submission and the need to list all current and pending support.

                        No further actions are required and accordingly, this case is closed.




 '
 I
     NSF OIG Form 2 (1 1/02)
